HHS/OIG - Audit,"The President's Council on Integrity and Efficiency Debt Collection Initiative at Cahaba Government Benefit Administrators,"(A-04-01-03001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"The President's Council on Integrity and Efficiency Debt Collection Initiative at Cahaba Government Benefit Administrators," (A-04-01-03001)
December 7, 2001
Complete
Text of Report is available in PDF format (1.16 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to:  (1) determine the amount of non-tax delinquent debt owed to Medicare that
existed at September 30, 2000; and (2) assess the collectibility of the delinquent debt at the contractor level for the
same period.  The accounts receivable balances Cahaba Government Benefit Administrators (CGBA) reported to the Centers
for Medicare & Medicaid Services for financial statement purposes for the period ending September 30, 2000 for Part
A (non-Medicare secondary payor (MSP) and MSP) accounts receivable was $500,831,731.  We reconciled the subsidiary
accounts for Part A to the general account.  Other audit tests we performed on statistical samples of Part A non-MSP
balances showed the vast majority of receivables were recorded, supported, complete, properly valued and existed at September
30, 2000.  However, we did recommend that the contractor:  (1) correct the status codes on two accounts receivable
balances to show the accurate status; (2) establish a system of internal controls that will provide adequate and timely
tracking of its collections efforts; and (3) reduce the Part A MSP accounts receivable balance by over $17 thousand that
were not adequately supported or had improperly applied payments.   The CGBA officials concurred with the majority
of the recommendations and agreed to take corrective action.